   Audit to Determine if Cohort Default Rates 

 Provide Sufficient Information on Defaults in the 

             Title IV Loan Programs




                                FINAL AUDIT REPORT




                                      ED-OIG/A03-C0017


                                            DECEMBER 2003






Our mission is to promote the efficiency,                     U.S. Department of Education
effectiveness, and integrity of the                           Office of Inspector General
Department’s programs and operations.                         Philadelphia, Pennsylvania
                                NOTICE
 Statements that managerial practices need improvements, as well as other
conclusions and recommendations in this report represent the opinion of the
Office of Inspector General. Determinations of corrective action to be taken
     will be made by the appropriate Department of Education officials.

 In accordance with Freedom of Information Act (5 U.S.C. § 552), reports
 issued by the Office of Inspector General are available to members of the
 press and general public to the extent information contained therein is not
                     subject to exemptions in the Act.
                           UNITED STATES DEPARTMENT OF EDUCATION

                                              OFFICE OF INSPECTOR GENERAL



                                                           DEC 2 2 2003
Memorandum

TO: 	           Sally Stroup
                Assistant Secretary for Postsecondary Education
                Lead Action Official

                Theresa S. Shaw 

                Chief Operating Officer 

                Federal Student Aid 


FROM: 	         Helen Lew            J{ein- W
                Assistant Inspector General for Audit Services

SUBJECT: 	 Final Audit Report
           "Audit to Determine if Cohort Default Rates Provide Sufficient Information on
           Defaults in the Title IV Loan Programs."
           Control Number ED-OIG/A03-COOI7

Attached is the subject final audit report that covers the results of our review of default rates for
the 1996 through 1999 cohorts. An electronic copy has been provided to your Audit Liaison
Officers. We received your comments, in which you did not disagree with our findings but
raised concerns about our recommendations.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices
will be monitored and tracked through the Department's automated audit tracking system. ED
policy requires that you develop a proposed Corrective Action Plan (CAP) in the automated
system within 60 days of the issuance of this report. The CAP should set forth the specific
action items, and targeted completion dates, necessary to implement final corrective actions on
the findings and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any reports unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress.

In accordance with the Freedom of Information Act (5 U.S.c. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation gi yen us during this review. If you have any questions, please
call Bernard Tadley, Regional Inspector General for Audit, at (215) 656-6279.

Attachment
                                     400 MARYLAND AVE.,     s.w. WASHINGTON, D.C. 20202-1510
             Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
          AUDIT TO DETERMINE IF COHORT DEFAULT RATES 

          PROVIDE SUFFICIENT INFORMATION ON DEFAULTS


                 IN THE TITLE IV LOAN PROGRAMS



                                ED-OIG/A03-C0017


                                TABLE OF CONTENTS


                                              Page


Executive Summary……………………………………………………………….…..    1



Background…………………………………………………………………………....                                           4


    Loan Programs under Title IV of the HEA……………………………………..                          4


    Implementing Cohort Default Rates…………………………………………….                              4


    Uses of Cohort Default Rates…………………………………………………...                               5


    Calculating Cohort Default Rates……………………………………………….                              6


    History of Defaults……………………………………………………………....                                   6


    Definition of Default…………………………………………………………….                                    7



Audit Results……………………………………………………………………….….                                          9



Finding No. 1 – Cohort Default Rates Do Not Appear to Reflect General Trends in 

Defaults in Year Following Two-Year Cohort Period..…………….....………………                 9


     Adjusted Default Rates………………………………………………………….                                  10


     Third-Year Default Rates……………………………………………………….                                 12


     Three-Year Default Rates……………………………………………………….                                 15


Recommendations...…………………………………………………………………...                                      18



Finding No. 2 – Borrowers in Deferment and Forbearance Lower Schools’ Cohort 

Default Rates……………………………………………..…………….....…………...                                   20


     Percentage of Borrowers in Deferment or Forbearance…………………………                  21


     Alternative Default Rates………………………………………………………..                               23


     Alternative/Adjusted Default Rates……………………………………………..                          24


Recommendations...…………………………………………………………………...                                      27



Other Matters..………………………………………………………………………...                                       28


     Other Reasons Cohort Default Rates May Not Provide Sufficient 

     Information………………………………………………………………………                                         28


     Effect of Change in Definition of Default on Reducing Defaults...…………….        28



Objective, Scope and Methodology….………………………………………….…….                              30



Appendix A –Gross Default Rates by Risk Category..………………………………..                    A-1



Appendix B – Default Data……………………………………………………………                                    B-1



Appendix C - Department’s Comments to the Report………………………………...                     C-1


AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                              ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                                        EXECUTIVE SUMMARY

The objective of our audit was to determine if cohort default rates, as calculated under the
Higher Education Act of 1965, as amended (HEA), provide sufficient information on
defaults in the Title IV loan programs. Cohort default rates provide sufficient
information to the Department of Education (Department), Congress, and other decision
makers if they provide comprehensive, complete, and accurate information that reflects
general trends in defaults.

To accomplish our objective, we gathered and analyzed data about borrowers in the 1996
through 1999 cohorts: we identified borrowers in each cohort who defaulted in the 90­
day and one-year periods immediately following the end of the two-year cohort period,1
and we identified borrowers in each cohort whose loans were in a deferment or
forbearance on the last day of the two-year cohort period.

Although cohort default rates provide the information required under the HEA, they do
not appear to provide decision-makers with sufficient information on defaults in the Title
IV loan programs. Specifically, we identified two findings:

1.		 Cohort default rates do not appear to reflect general trends in defaults in the year
     following the two-year cohort period.

    •		 The Higher Education Amendments of 1998 (1998 Amendments) changed the
        definition of default for loans for which the first day of delinquency occurred on
        or after October 7, 1998, from a 180-day delinquency to a 270-day delinquency.
        To examine this change’s impact, we adjusted the 1998 and 1999 cohort default
        rates to account for the 90 days added to the delinquency period. We found that
        the definition’s change may have resulted in the 1998 and 1999 cohort default
        rates’ being materially lower than they would have been, if they had been
        calculated using the previous definition of default.
                                                                                   Graph S-1: Third Year Rates
    •		 Default trends during the third year (the
                                                                  12.0%
        fiscal year immediately following the
                                                                  10.0%
        two-year cohort period) were not                           8.0%     9.6%
        always similar to trends of cohort                                         8.8%
                                                                   6.0%                   6.9%
        default rates. As Graph S-1 shows,                         4.0%                          5.7%
        the 1997 through 1999 cohort default                       2.0%                                 4.1%
                                                                                                               3.1% 3.2% 3.5%
        rates decline each year, but the third-year                0.0%


        rates for the same cohorts increase.                                 Cohort Default Rate        Third-Year Default Rate


                                                                                      1996       1997   1998    1999



1
  In this report, the “two-year cohort period” is the fiscal year in which the cohort’s borrowers entered
repayment on their loans and the following fiscal year. For example, the 1998 cohort default rate was
calculated based on the number of borrowers who entered repayment on their loans in FY 1998 and who
defaulted during the two-year cohort period (FYs 1998 and 1999).


                                                Page 1
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                 ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

    •		 The distribution of defaults over a three-year cohort period (the two-year cohort
        period combined with the following one-year period) changed by a material
        amount from the 1996 to 1999 cohorts: 70.1 percent of the cohort borrowers who
        defaulted during the 1996 three-year cohort period defaulted in the first two years,
        while only 61.6 percent of the cohort borrowers who defaulted during the 1999
        three-year cohort period defaulted in the first two years.

2.		 Borrowers in deferment and forbearance lower schools’ cohort default rates.
     In 1999, the General Accounting Office (GAO)                Graph S-2: Deferments & Forbearances
     found that the percentage of borrowers with         25.0%
     loans in deferment or forbearance more than
                                                         20.0%                                     21.7%
     doubled between 1993 and 1996, from 5.2                                             19.1%
                             2                           15.0%
     percent to 11.3 percent. Though our
                                                                             14.5%
     numbers were different than GAO’s, we               10.0%
                                                                  10.1%
     identified the same trend: the percentage of         5.0%
     borrowers with loans in deferment or
                                                          0.0%
     forbearance more than doubled between the
                                                                  1996        1997        1998     1999
     1996 and 1999 cohorts, from 10.1 percent to
                                                                                   Cohort
     21.7 percent. (See Graph S-2.) If these borrowers were excluded
     entirely from the 1996 through 1999 cohort default rate calculations—because the
     borrowers were not making payments during the cohort default period, and could not
     default—the effect would be a material increase in cohort default rates for those
     years.

Changes to the definition of default and repayment practices have materially reduced
schools’ cohort default rates, while threshold percentages for schools’ ineligibility have
remained unchanged since 1994. For example, because the change in the definition of
default increased the number of days it takes for a borrower to default, some borrowers
may not be included as defaulters in the cohort default rate calculation, even though they
never make a payment on their loans and default at the first opportunity.

We recommend that the Assistant Secretary for Postsecondary Education and the Chief
Operating Officer for Federal Student Aid support amendments to the HEA, that would
    •		 Include defaults in the cohort default rate calculation that have been excluded by
        the 1998 Amendments’ change to the definition of default, and
    •		 Exclude borrowers who are in deferment or forbearance status from cohort default
        rate calculations until the deferment and forbearance ends and they are subject to
        a default risk on their loans.
We also recommend that the Department calculate and publish a life-of-cohort default
rate for each cohort, to better identify the trends in cohorts’ defaults after the two-year
cohort period has ended.




2
  Student Loans: Default Rates Need to Be Computed More Appropriately, GAO/HEHS-99-135 (July
1999).


                                           Page 2
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT        ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



A draft of this report was provided to the Office of Postsecondary Education (OPE) and
Federal Student Aid (FSA) for review and comment. In its comments on the draft report,
developed with FSA, OPE did not disagree with our findings, but noted concerns with
our recommendations. We have incorporated OPE’s comments, where appropriate, into
the report and provide their full response in Appendix C.




                                        Page 3
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT             ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                                      BACKGROUND

Loan Programs under Title IV of the HEA

The Department administers the William D. Ford Federal Direct Loan (Direct Loan)
Program and Federal Family Education Loan Program (FFELP) to help students finance
the costs of higher education. The Direct Loan Program and FFELP are authorized under
Title IV of the HEA. The Department makes Direct Loan Program loans directly to
borrowers and guarantees all or a portion of FFELP loans made by participating lending
institutions for students’ attendance at eligible institutions of higher education. Eligible
institutions of higher education include public and private two- and four-year schools,
graduate schools, and vocational training schools. Students and their parents may be
eligible to receive loans. Student borrowers who demonstrate financial need may receive
federal interest subsidies on their loans.

The federal government makes Direct Loan Program loans directly to students and
parents, through participating schools. Direct Loans are originated and serviced through
contracts with private vendors. Under the FFELP, over 4,000 financial institutions make
loans to students and parents. FFELP loans are guaranteed by the federal government
against default, with 36 state or non-profit guaranty agencies acting as intermediaries in
administering the loan guarantees.

Both the Direct Loan Program and FFELP offer the following types of loans:
•		 Subsidized loans to students. Subsidized loans are based upon students’ financial
    need. The federal government subsidizes the interest accruing on the loan before
    students begin repayment or while they are in deferment.
•		 Unsubsidized loans to students. Unsubsidized loans are not based upon financial
    need. Interest on an unsubsidized loan accrues from the time the loan is disbursed
    until it is paid in full.
•		 PLUS loans to parents, for children who are dependent undergraduate students.
•		 Consolidation loans, to allow student or parent borrowers to combine several types of
    federal loans into one loan.

Implementing Cohort Default Rates

In 1987, the Department was concerned that increasing student loan default costs were
undermining public confidence in the loan programs. A study found about 950 schools
had fiscal year (FY) 1985 default rates greater than 40 percent. The Department had
taken actions to control loan defaults by implementing default prevention and collection
activities, including use of private collection agencies, use of salary offsets, notifying
credit bureaus, use of IRS tax refund offsets, and increasing lender and guaranty agency
due diligence requirements.




                                         Page 4
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                               ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



The Department also sought statutory changes to broaden loan consolidations and to
allow the use of the National Student Loan Data System (NSLDS) to verify borrower
eligibility. To further control loan defaults, the Department issued regulations to hold
schools responsible for keeping loan program default rates of student borrowers who
attend their institutions below a specified threshold for the first two years of repayment.
A school’s default rate that exceeds the threshold indicates that the school may not have
adequate institutional capability to administer the loan programs and may pose an
unreasonable risk of loss to taxpayers. Congress added sanctions based on cohort default
rates to the HEA in 1990.

Uses of Cohort Default Rates

Cohort default rates help save taxpayers money because they are an indicator of a
school’s ability to properly administer the Title IV programs, and because high rates
affect the school’s eligibility under the HEA and the regulations. Cohort default rates
provide an incentive to schools to work with their borrowers to reduce defaults.

Under Sections 401(j)(1) and 435(a) of the HEA and 34 C.F.R. § 668.187(a)(2), if a
school’s three most recent cohort default rates are 25 percent or greater, that school loses
its eligibility to participate in the FFELP, Direct Loan, and Federal Pell Grant programs
for the remainder of the current FY and for the two following FYs. Under 34 C.F.R. §
668.187(a)(1), if a school’s most recent cohort default rate is greater than 40 percent, the
school loses its eligibility to participate in the FFELP and Direct Loan Program for the
remainder of the current FY and for the two following FYs.3

Schools with low cohort default rates are eligible for an exemption from certain
requirements. If a school’s most recent cohort default rate is less than 5 percent, the
school may deliver loan proceeds in a single installment to a student studying abroad.
Until September 30, 2002, if a school’s three most recent cohort default rates were less
than 10 percent, the school was able to deliver loan proceeds in a single installment or
chose not to delay the delivery of the first installment of a loan for first-time, first-year
borrowers. Neither the Department’s nor Federal Student Aid's current Performance
Plans include cohort default rates as a performance indicator or measure.

The Department uses a default rate as a partial basis for its estimate of loan program
subsidy rates. Loan program subsidy rates are the federal portion of non-administrative
costs (principally interest subsidies and defaults) associated with each borrowed dollar,
and are used to develop loan program cost estimates. The default rates used by the
Department to develop loan program cost estimates, provided in Appendix A to this
report, represent projected defaults over the life of the loan cohort and are not the same as
cohort default rates calculated under the HEA.




3
    Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume.


                                                    Page 5
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                       ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

Calculating Cohort Default Rates

Cohort default rates are calculated using formulas established in Section 435(m) of the
HEA and promulgated in regulations at 34 C.F.R. Part 668, Subpart M. If a school has
30 or more borrowers entering repayment, the cohort default rate is calculated as follows:

            The number of borrowers who enter repayment in the cohort FY
                   and who default by the end of the following FY.
            The number of borrowers who enter repayment in the cohort FY.

If a school has 29 or fewer borrowers entering repayment, the cohort default rate is
calculated as follows:

                  The number of borrowers who enter repayment in the
                  cohort FY and the two preceding FYs and who default
                     by the end of the FY immediately following the
                      cohort FY in which they entered repayment.
                    The number of borrowers who enter repayment in
                    the cohort FY and the two preceding cohort FYs.

Students with subsidized and unsubsidized FFELP and Direct Loan Program loans and
Federal Supplemental Loans for Students (which have not been made since July 1, 1994)
are included in the cohort default rate calculation. Borrowers are not included in the
cohort default rate calculation on the basis of PLUS loans or Federal Insured Student
Loans. Consolidation loan borrowers are included only on the basis of the loans that
were repaid by the Consolidation loan.

History of Defaults

Cohort default rates have declined significantly since the late 1980’s and early 1990’s, as
exhibited in the following graph:
                                       Graph 1: Cohort Default Rates
                  25%
                         21.4% 22.4%

                  20%              17.8%
                                           15.0%
                  15%
                                                   11.6%
                                                           10.7% 10.4%
                                                                         9.6%
                                                                                8.8%
                  10%                                                                  6.9%
                                                                                              5.6% 5.9%

                   5%


                   0%
                          1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000
                                                             Cohort

                        Source: U.S. Department of Education, Federal Student Aid, September 2002.



                                                   Page 6
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                         ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Despite this decline in cohort default rates, the total dollar amount of defaults outstanding
continued to increase because the total dollar amount of loans outstanding continued to
increase.4 During the period from the end of FY 1995 to the end of FY 1999 the amount
of loans in default grew at a slower rate than the amount of loans outstanding. The
amount of loans in default increased 26 percent, from approximately $18 billion at the
end of FY 1995 to approximately $22.6 billion at the end of FY 1999. During the same
period, the amount of loans outstanding increased 76 percent, from approximately $114
billion at the end of FY 1995 to approximately $201 billion at the end of FY 1999. The
total dollar amount of loans in default and loans outstanding is provided in the following
table:

                                               Table 1
       Cumulative Amount of Defaulted Loans Held by the Department and Guaranty Agencies
                                       (in millions of dollars)
Fiscal Year Ended September 30th           1995         1996          1997        1998         1999
Subsidized                                 $13,678      $12,290      $13,610      $14,472      $15,376
Unsubsidized                                   $56          $100        $376         $782       $1,307
PLUS                                        $1,118       $1,063        $1,298      $1,376       $1,070
Supplemental Loans for Students             $3,096       $3,151        $3,181      $3,125       $2,985
Consolidation                                  $29          $133        $383         $941       $1,898
 Total Defaulted Loans*                    $17,976      $16,738      $18,847      $20,697      $22,637
                     Cumulative Amount of Loans Outstanding and in Default
                                       (in millions of dollars)
Fiscal Year Ended September 30th           1995         1996          1997        1998         1999
Subsidized                                 $75,878      $80,798      $89,251      $97,185    $102,554
Unsubsidized                               $10,040      $17,374      $26,084      $35,297      $43,403
PLUS                                        $6,481       $7,607        $9,144     $10,635      $11,461
Supplemental Loans for Students            $10,477       $9,292        $8,303      $7,474       $6,537
Consolidation                              $11,176      $16,039      $20,212      $25,466      $37,055
 Total Outstanding Loans*                $114,053      $131,110     $152,993    $176,058     $201,010
                                                                 *Amounts may not add due to rounding.
                    Source: U.S. Department of Education, Office of the Under Secretary, Budget Service

Definition of Default

The 1998 Amendments amended Section 435(l) of the HEA to change the definition of
default for loans for which the first day of delinquency occurred on or after October 7,
1998, from a 180-day delinquency to a 270-day delinquency.




4
  In OPE’s response to the report, OPE states that, in recent years (i.e., FYs 2000 and 2001), the
outstanding defaulted portfolio is decreasing because collections are outpacing the amount of defaults. The
response includes a graph, comparing non-defaulted loans outstanding to defaulted loans outstanding,
which OPE believes provides a clearer picture of the defaulted portfolio relative to the total loans
outstanding.


                                                Page 7
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                      ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



For purposes of calculating cohort default rates, a FFELP borrower is generally
considered to be in default if an insurance claim is paid on the borrower’s loan during the
two-year cohort period.5 For Direct Loans, specific timeframes are included in 34 C.F.R.
§ 668.183 to determine if a Direct Loan is considered to be in default for cohort default
rate purposes. Since there is usually a 90-day period between the date a FFELP loan
defaults and the date the insurance claim is paid to the lender, a corresponding 90-day
period is included in the timeframe for Direct Loan defaults.

As a result of changes in the definition of default, the timeframe for considering a
borrower in default for cohort default rate purposes on a FFELP loan increased from
about 270 days (180 days delinquency plus about 90 days to pay the claim) to about 360
days (270 days delinquency plus about 90 days to pay the claim), and the timeframe for
considering a borrower to be in default for cohort default rate purposes on a Direct Loan
increased from 270 days to 360 days.

The change in the definition of default impacted cohort default rates in a number of ways.
For example, the change in the definition of default may enable a borrower who never
makes a payment on his or her loan to be excluded from the cohort default rate
calculation:

        •		 Under the previous, 180-day definition of default, it would take about 330
            days for a borrower to be considered in default and included in the numerator
            of a cohort default rate calculation. (60 days until the first scheduled payment
            is due6 + 270 days to default = 330 days.) Since 330 days is less than a year,
            it may have been possible for the last borrower in the cohort who makes no
            payments to default before the end of the following fiscal year.

        •		 Under the current, 270-day definition of default, it would take about 420 days
            for a borrower to be considered in default and included in the numerator of a
            cohort default rate calculation (60 days until the first scheduled payment is
            due + 360 days to default = 420 days.) Since 420 days is more than a year, it
            may not be possible for some of the last borrowers in the cohort who make no
            payments to default before the end of the following fiscal year.




5
  We previously reported and recommended that the actual default date be captured and used to calculate
cohort default rates. The previous report, Change in the Computation of Cohort Default Rates Would Make
Rates More Accurate, March 2000 (ED-OIG/A06-7006), is available on the internet at
http://www.ed.gov/about/offices/list/oig/areports2000.html. The recommendations from the report have
not been implemented, so we used the claims-paid date for all calculations in this report.
6
  In general, the first payment on a FFELP or Direct Loan is due approximately 60 days from the date the
borrower enters repayment. The timeframe for making a first payment on a FFELP loan changed on July 1,
2003, from 45 days to 60 days after the borrower enters repayment. (34 C.F.R § 682.209(a)(3)(ii) (2003))


                                              Page 8
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT              ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                                      AUDIT RESULTS

The objective of our audit was to determine if cohort default rates, as calculated under the
HEA, provide sufficient information on defaults in the Title IV loan programs. Cohort
default rates provide sufficient information to the Department, Congress, and other
decision makers if they provide comprehensive, complete, and accurate information that
reflects general trends in defaults.

Our audit covered the 1996 through 1999 two-year cohort periods and the FY following
each two-year cohort period. Although cohort default rates provide the information
required under the HEA, they do not appear to provide decision makers with sufficient
information on defaults in the Title IV loan programs. Changes to the definition of
default and repayment practices have materially reduced schools’ cohort default rates,
while threshold percentages for schools’ ineligibility have remained unchanged since
1994.

Without information that reflects the general trends in defaults, schools may continue to
participate in Title IV programs, even though a significant percentage of the schools’
students may default on their loans. Defaulted student loans cost taxpayer money.
Default rates that provide improved information on student loan defaults may allow the
Department to terminate or suspend marginal schools’ eligibility to participate in Title IV
programs, thereby reducing the risk of loss to taxpayer funds.

FINDING NO. 1 - COHORT DEFAULT RATES DO NOT APPEAR TO REFLECT GENERAL
TRENDS IN DEFAULTS IN YEAR FOLLOWING TWO-YEAR COHORT PERIOD

As described in this section, we used data we obtained for defaults that occurred after the
two-year cohort period ended to calculate other types of default rates: adjusted default
rates, third-year default rates, and three-year default rates. Based on our analysis of these
other types of default rates, cohort default rates calculated under the HEA do not appear
to reflect general trends in defaults in the year following the two-year cohort period.

As a result, cohort default rates do not appear to provide decision makers with sufficient
information on defaults in the Title IV loan programs. Cohort default rates do not capture
information on defaults beyond the two-year cohort period, because the HEA specifies
that cohort default rates only include defaults that occur during the FY in which the
borrower enters repayment and in the following FY. Without information that reflects
the general trend in defaults, schools may continue to participate in Title IV programs
even though a significant percentage of their students may default. Defaulted student
loans cost taxpayers money.




                                         Page 9
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT             ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Adjusted Default Rates

As noted in the Background section, the 1998 Amendments amended Section 435(l) of
the HEA to change the definition of default for loans for which the first day of
delinquency occurred on or after October 7, 1998, from a 180-day delinquency to a 270­
day delinquency.

If other factors affecting the timing of borrower default remained constant, the change in
the definition of default affected the 1998 and later cohort default rate calculations by
removing defaults that would have been recognized during the last 90 days of the two-
year cohort period under the previous, 180-day definition: some delinquent borrowers
who would have been counted as defaulters under the prior definition are no longer
counted.

       •		 Under the 180-day definition, a borrower would have to become delinquent by
           about January 4 of the second fiscal year in the two-year cohort period in
           order to be counted as a defaulter (January 4 + 180 days to default + 90 days
           for the FFELP claim or Direct Loan equivalent = September 30).

       •		 Under the 270-day definition, a borrower would have to become delinquent 90
           days earlier, on about October 6 of the second fiscal year, in order to be
           counted as a defaulter (October 6 + 270 days to default + 90 days for the
           FFELP claim or Direct Loan equivalent = September 30).

To determine the impact of the change in the definition of default on cohort default rates,
we identified borrowers who defaulted in the 90-day period following the two-year
cohort periods, and we included those defaulters when calculating adjusted default rates
for the 1998 and 1999 cohorts. Including defaults from this 90-day period should
account for the 90 days that were added by the 1998 Amendments to the delinquency
period that results in a default (i.e., from 180 days to 270 days).

If other factors affecting the timing of borrowers’ defaults remained constant, these
adjusted default rates should permit year-to-year comparisons of data from before and
after the change in the definition of default. Other factors may have also affected the
timing of borrower default: the amount of time between the date the borrower enters
repayment and the date of his or her first scheduled payment, the borrower’s payment
history, the amount of time it takes for a lender to submit a default claim, the amount of
time it takes for a guaranty agency to process a default claim, and other factors.




                                        Page 10
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                     ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



We calculated adjusted default rates for the 1998 and 1999 cohorts as follows:

             Number of borrowers who enter repayment in the cohort FY and
               who default during the two-year cohort period and 90 days
                         following the two-year cohort period.
              Number of borrowers who enter repayment in the cohort FY.



We compare the adjusted default rates to cohort default rates in the following graph:



                                     Graph 1-1: Cohort Default Rates vs. Adjusted De fault
                                                           Rate s
                                  12.0%
                                             9.6%         8.8%
                                  10.0%                                   7.7%
                   Default Rate




                                                                                        6.6%
                                   8.0%
                                   6.0%
                                                                          6.9%
                                   4.0%                                                 5.7%
                                   2.0%
                                   0.0%
                                             1996         1997            1998          1999

                                                                 Cohort
                                              Cohort Default Rate         Adjusted Default Rate




Since adjusted default rates should account for the change in the definition of default, the
graph shows that, if other factors affecting the timing of borrowers’ defaults remained
constant, the change in the definition of default may have resulted in material
understatements of the 1998 and 1999 cohort default rates, compared to what they would
have been, had the definition remained unchanged: the 1998 adjusted default rate is 10.8
percent greater than the 1998 cohort default rate, and the 1999 adjusted default rate is 16
percent greater than the 1999 cohort default rate.

Public, private, and proprietary school types all experienced trends in their cohort default
rates and adjusted default rates similar to those we describe for the overall default rates.




                                                        Page 11
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Third-Year Default Rates

We identified cohort borrowers who defaulted in the FY following the two-year cohort
period and used this data to calculate third-year default rates. We calculated third-year
default rates as follows:

                The number of borrowers who enter repayment in the cohort FY 

                and who default in the FY following the two-year cohort period.


                     The number of borrowers who enter repayment in the 

                                          cohort FY. 


The results of our calculation are presented in the following table:7

                                               Table 1-1: Third-Year Default Rates

                                                                                                Percentage  Percentage
                                                                                               Change 1996 Change 1997
                                           1996          1997          1998           1999        to 1999    to 1999
         Overall
         Third-Year Default Rate           4.1%          3.1%          3.2%           3.5%         -13.9%        16.1%
         Cohort Default Rate               9.6%          8.8%          6.9%           5.7%         -41.0%        -35.1%


                                                                       Note: Amounts have been rounded to one decimal place.


A comparison of cohort default rates and third-year default rates, identified in Table 1-1,
is provided in the following graph:


                                    Graph 1-2: Cohort and Third-Year Default Rates

                           12.0%
                           10.0%
                             8.0%       9.6%
                                               8.8%
                             6.0%                     6.9%
                             4.0%                            5.7%
                                                                               4.1%
                             2.0%                                                      3.1% 3.2% 3.5%
                             0.0%
                                          Cohort Default Rate                 Third-Year Default Rate

                                                      1996      1997     1998        1999




7
  For consistency, all default rates contained in this report have been rounded to one decimal place. In
preparing cohort default rates, the Department truncates the cohort default rate at one decimal place. As a
result, for some years and/or school type cohort default rates, minor differences may be noted between the
cohort default rates contained in this report and those issued by the Department. For example, the truncated
1999 cohort default rate issued by the Department is 5.6%, and the rounded 1999 cohort default rate
contained in this report is 5.7%.


                                                        Page 12
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                       ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

Third-year default rates did not experience cohort default rates’ consistent downward
trend between the 1996 and 1999 cohorts:
•		 Though both the cohort and third year default rates decrease from 1996 to the 1999,
    the decrease of third-year default rates (from 4.1 to 3.5 percent) is significantly less
    than the decrease of cohort default rates (from 9.6 percent to 5.7 percent).
•		 Third-year default rates increased from the 1997 to 1999 cohorts, while cohort
    default rates declined during the same period.

We also calculated third-year default rates for public, private, and proprietary schools.
The results of our calculations are presented in the following table:

                                  Table 1-2: School Type Third-Year Default Rates

                                                                                        Percentage  Percentage
                                                                                       Change 1996 Change 1997
                                    1996          1997         1998          1999         to 1999     to 1999
        Public Schools
        Third-Year Default Rate     3.6%          2.7%         2.8%          3.1%          -13.4%         17.4%
        Cohort Default Rate         8.5%          8.3%         6.9%          5.6%          -34.1%        -31.9%


        Private Schools
        Third-Year Default Rate     2.9%          2.0%         2.0%          2.3%          -20.5%         14.3%
        Cohort Default Rate         7.0%          6.1%         4.7%          3.9%          -44.3%        -36.8%


        Proprietary Schools
        Third-Year Default Rate     8.0%          6.4%         6.8%          7.5%          -5.8%          17.5%
        Cohort Default Rate         18.2%        15.4%        11.4%          9.4%          -48.5%        -39.2%


                                                               Note: Amounts have been rounded to one decimal place.




                                                 Page 13
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                             ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



A comparison of cohort default rates and third-year default rates, identified in Table 1-2,
is provided in Graphs 1-3 and 1-4, respectively:

                                           Graph 1-3: Cohort Default Rates


                    20.0%
                                                                                          18.2%
                    15.0%
                                                                                              15.4%
          Percent




                    10.0%                                                                             11.4%
                                                       8.5% 8.3%                                              9.4%
                    5.0%    7.0% 6.1%                                6.9%
                                        4.7% 3.9%                           5.6%

                    0.0%
                             Private Schools                Public Schools            Proprietary Schools

                                                    1996      1997      1998       1999



                                        Graph 1-4: Third-Year Default Rates


                    10.0%
                     8.0%
                                                                                           8.0%                7.5%
          Percent




                     6.0%
                                                                                                  6.4% 6.8%
                     4.0%
                                                           3.6%
                     2.0%   2.9%                                  2.7% 2.8% 3.1%
                                   2.0% 2.0% 2.3%
                     0.0%
                              Private Schools                Public School                 Proprietary Schools

                                                    1996      1997       1998      1999



A comparison of third-year default rates with cohort default rates, by school type, shows
trends similar to those identified for overall default rates, in Graph 1-2.




                                                    Page 14
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                              ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Three-Year Default Rates

We calculated three-year default rates that included defaults that occurred during the two-
year cohort period and during the FY following the two-year cohort period. We
calculated three-year default rates as follows:

            The number of borrowers who enter repayment in the cohort FY
             and who default during the two-year cohort period and the FY
                        following the two-year cohort period.
            The number of borrowers who enter repayment in the cohort FY.

The results of our calculations are presented in the following table:

                                              Table 1-3: Three-Year Default Rates

                                                                                                       Percentage
                                                                                                      Change 1996
                                                    1996        1997          1998           1999        to 1999
            Overall
            Cohort Default Rate                   9.6%           8.8%         6.9%           5.7%        -41.0%
            Three-Year Default Rate              13.8%          11.8%        10.1%           9.2%        -32.8%
            Percent that Three­
             Year Rate Exceeds
              Cohort Default Rate                42.6%          34.8%        46.0%           62.4%
            Percentage Composition of Three-Year Default Rates
             Cohort Default Rate                70.1%          74.2%         68.5%         61.6%         -12.2%
             Third-Year Default Rates           29.9%          25.8%         31.5%         38.4%          28.6%
             Three-Year Default Rate           100.0%          100.0%        100.0%        100.0%

                                                               Note: Amounts have been rounded to one decimal place.


A comparison of cohort default rates and three-year default rates, identified in Table 1-3,
is provided in the following graph:

                                Graph 1-5: Cohort and Three-Year Default Rates

                        15.0%
                                                                              13.8%
                        10.0%                                                         11.8%
              Percent




                                      9.6%                                                    10.1%
                                             8.8%                                                     9.2%
                        5.0%                         6.9%
                                                             5.7%

                        0.0%
                                       Cohort Default Rate                     Three-Year Default Rate

                                                       1996      1997      1998       1999




                                                           Page 15
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                             ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Though trends for three-year default rates may appear similar to trends for cohort default
rates, because both decline from 1996 to 1999, an increasing percentage of defaulters
were defaulting in the third year of the three-year default rate: the 1996 three-year default
rate is 42.6 percent greater than the 1996 cohort default rate, and the 1999 three-year
default rate is 62.4 percent greater than the 1999 cohort default rate.

The composition of each three-year default rate, as identified in Table 1-3, is illustrated in
the following graph:

                                           Graph 1-6: Composition of Three-Year Default Rates

                                    100%
                                               29.9%             25.8%           31.5%
                                    80%                                                           38.4%
                 Percent of Total




                                    60%

                                    40%                          74.2%
                                               70.1%                             68.5%            61.6%
                                    20%

                                     0%
                                                1996             1997 Cohort 1998                 1999

                                                       Cohort Default Rate   Third Year Default Rate



An analysis of the composition of the three-year default rates, in Graph 1-6, shows that
the percentage of defaults in the three-year default rate that is attributable to the two-year
cohort period decreased materially from 1996 (70.1 percent) to 1999 (61.6 percent).




                                                                Page 16
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                            ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



We also calculated three-year default rates for public, private, and proprietary schools.
The results of our calculations are presented in the following table:

                                      Table 1-4: School Type Three-Year Default Rates

                                                                                                     Percentage
                                                                                                    Change 1996
                                                 1996          1997         1998          1999         to 1999
            Public Schools
            Cohort Default Rate                  8.5%          8.3%         6.9%          5.6%         -34.1%
            Three-Year Default Rate             12.1%         10.9%         9.7%          8.7%         -27.9%
            Percentage that Three­
             Year Rate Exceeds
             Cohort Default Rate                42.0%         32.0%        41.1%         55.2%
            Percentage of Composition of Three-Year Default Rates:
             Cohort Default Rate                70.4%          75.7%       70.9%         64.4%          -8.5%
             Third-Year Default Rate            29.6%          24.3%       29.1%         35.6%          20.2%
             Three-Year Default Rate            100.0%         100.0%      100.0%        100.0%

            Private Schools
            Cohort Default Rate                  7.0%          6.1%         4.7%          3.9%         -44.3%
            Three-Year Default Rate              9.9%          8.2%         6.7%          6.2%         -37.4%
            Percentage that Three­
             Year Rate Exceeds
             Cohort Default Rate                42.0%         33.1%        42.2%         59.8%
            Percentage of Composition of Three-Year Default Rates:
             Cohort Default Rate                70.5%          75.2%       70.3%         62.6%         -11.2%
             Third-Year Default Rate            29.5%          24.8%       29.7%         37.4%          26.7%
             Three-Year Default Rate            100.0%         100.0%      100.0%        100.0%

            Proprietary Schools
            Cohort Default Rate                 18.2%         15.4%        11.4%          9.4%         -48.5%
            Three-Year
            .          Default Rate             26.2%         21.8%        18.2%         16.9%         -35.5%
            Percentage that Three­
             Year Rate Exceeds
             Cohort Default Rate                43.7%         41.5%        60.1%         80.1%
            Percentage of Composition of Three-Year Default Rates:
             Cohort Default Rate                69.6%          70.7%       62.5%         55.5%         -20.2%
             Third-Year Default Rate            30.4%          29.3%       37.5%         44.5%          46.1%
             Three-Year Default Rate            100.0%         100.0%      100.0%        100.0%

                                                             Note: Amounts have been rounded to one decimal place.


In general, all school types included in Table 1-4 experienced the same general trends
reflected in Table 1-3, for overall default rates: three-year default rates decrease each
year, an increasing percentage of defaulters were defaulting in the third year, and the
composition of the three year rates reflects decreased percentages of defaults attributable
to the two-year cohort period.




                                                        Page 17
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                          ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



However, two of these trends are significantly more pronounced for proprietary schools
than for public or private schools. Proprietary schools show the greatest
    •		 Increase in “Percentage that Three-Year Rate Exceeds Cohort Default Rate.” In
        1996, the three-year rate exceeded the cohort default rate by 43.7 percent; in
        1999, the three-year rate exceeded the cohort default rate by 80.1 percent.
    •		 Decrease in the “Percentage Change 1996 to 1999” for the percentage of the
        composition of the three-year rate attributable to the cohort default rate. From
        1996 to 1999, the proportion of defaults in the two-year cohort period decreased
        by 20.2 percent. Public and private schools decreased 8.5 percent and 11.2
        percent, respectively.

Recommendations:

To provide decision makers with sufficient information on defaults in the Title IV loan
programs, we recommend that the Assistant Secretary for Postsecondary Education and
the Chief Operating Officer for Federal Student Aid

1.1.		   Develop and publish annually a life of cohort default rate for each cohort. A life
         of cohort default rate could be calculated using the same methodology employed
         for cohort default rates, except that with the passage of each FY, the rate would be
         recalculated using the cumulative number of borrowers who defaulted. The
         denominator for a given cohort would remain unchanged. A life of cohort default
         rate would serve as an additional, more comprehensive resource for the
         Department, Congress, and other decision makers, and would also help verify that
         cohort default rates calculated under the HEA contain sufficient information on
         defaults in the Title IV loan programs.8

1.2.		   Support an amendment to the HEA to include in the calculation of cohort default
         rates the defaults that were excluded by the 1998 Amendments’ change in the
         definition of default. This recommendation could be accomplished in a number
         of ways: for example, by supporting an amendment to return the definition of
         default to its previous 180-day delinquency basis, or by supporting an amendment
         to adjust the cohort default rate calculation to include defaults occurring in the 90­
         day period following the two-year cohort period.

         The objective of Recommendation 1.2 could be accomplished in a number of
         different ways, depending upon how the Department chooses to implement it.
         Since these amendments to the HEA could, under some scenarios, affect aspects
         of the Title IV loan programs outside cohort default rate issues, we encourage the
         Department to study and identify low-cost, effective options, and to support
         implementing amendments to the HEA.

8
 A life of cohort default rate would be different from the lifetime default rates calculated by the
Department (see Background and Appendix A). Because the Department’s lifetime default rates are based
on estimates of defaults and are not calculated for individual schools, they are of limited value to FSA, in
most cases, for use in its management of the loan programs.


                                                Page 18
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT              ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

OPE Comments:

In response to Recommendation 1.1, OPE states that FSA’s Portfolio Risk Management
Group is developing, and plans to publish, a lifetime default rate for the Title IV loan
programs. This lifetime default rate will focus on the amount of dollars in default, rather
than the number of borrowers in repayment, highlighting the borrower’s ability to repay a
student loan rather than a school’s administration of the program. OPE states that

   •		 A life of cohort default rate for individual schools would be of little use to schools
       or the Department, because schools have a limited span of control over their
       borrowers’ repayment behavior;

   •		 A life of cohort default rate for school types would be of little use because schools
       often change from one type to another; and

   •		 Publication of a second measure of default that focuses on the school and school
       type would be confusing to schools and to the public.

In response to Recommendation 1.2, OPE comments that adjusting the cohort default rate
calculation to include defaults occurring in the 90-day period following the two-year
cohort period would delay notifications to schools. Schools would not be informed of
sanctions before they had packaged students’ aid for the next year. This delay could be
disruptive and could harm the overall goal of the Title IV programs, which is assuring
access to postsecondary education.

OIG Response:

We do not agree with OPE’s contention that a life of cohort default rate calculated for
individual schools and school types would be of little use, or that issuing such a default
rate would be confusing:

   •		 Though a school’s ability to compel students to repay their loans may decrease
       over time, the effects of a good or bad education are much more durable: a
       school’s life of cohort default rate could be an indicator of the school’s ability to
       successfully prepare students for the workforce.

   •		 We have no data to conclude that schools change type (i.e., from proprietary to
       private, public to private, etc.) with such frequency that a life of cohort default
       rate could not be calculated effectively.

   •		 With proper disclosure, the publication of a life of cohort default rate would not
       be any more confusing to schools or the public than is the publication of statutory
       cohort default rates.




                                         Page 19
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                          ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



School and school-type life of cohort default rates could help the Department identify
schools and school types that pose an unreasonable risk to taxpayer funds. The
Department could use these rates to offer assistance to, and formulate policy to address,
the schools and school types that pose such a risk. This type of rate could also be used to
verify that statutory cohort default rates provide sufficient information on loan program
defaults; the lifetime cohort default rate that the Department proposes could not.

Recommendation 1.2 provides for the accomplishment of its objective in a number of
ways. OPE’s comments only address one example we provide: extending the two-year
cohort period to include the following 90-day period. There are other ways that the
recommendation’s objective may be accomplished. For example, the definition of
default could be returned to its previous 180-day basis or the structure of the cohort itself
could be reconfigured. In addition, in its comment on our example, OPE does not appear
to consider the possibility of changing its processes so that an official cohort default rate
could be issued more quickly (for example, by modifying the processes for issuing draft
rates).

FINDING NO. 2 – BORROWERS IN DEFERMENT AND FORBEARANCE LOWER SCHOOLS’
COHORT DEFAULT RATES

Borrowers may be eligible for deferment or forbearance after entering repayment on their
loans.9 When borrowers are granted deferments or forbearances, they are able to
postpone repayment of their loans:

    •		 Under 34 C.F.R. §§ 682.210(a) and 685.204(a), during a deferment, if a
        borrower’s loan is eligible for interest subsidies, periodic principal and interest
        payments are deferred. If a borrower’s loan is not eligible for interest subsidies,
        principal need not be paid during the deferment period, but interest not paid by
        the borrower is capitalized.

    •		 Under 34 C.F.R. §§ 682.211(a)(1) and 685.205(a), during a forbearance, a
        borrower is allowed to temporarily cease payments, extend the time for making
        payments, or temporarily make smaller payments than previously scheduled.

Lenders are permitted to use forbearances for eligible borrowers in order to assist the
borrowers in avoiding default on their student loans. As noted in 34 C.F.R. §
682.211(a)(1), “The Secretary encourages a lender to grant forbearance for the benefit of
a borrower or endorser in order to prevent the borrower or endorser from defaulting on
9
 A borrower may be eligible for deferment if the borrower is continuing his or her education, enrolled in a
graduate fellowship or rehabilitation training program, unemployed, or experiencing an economic hardship.
Borrowers may be eligible for additional types of deferments if their loans meet certain conditions. A
borrower may be eligible for forbearance if he or she is unable to make scheduled loan payments due to
poor health; completing a medical or dental internship or residency; subject to loan payments that
collectively are 20 percent or greater than his or her total monthly income; serving in a specified national
service position; subject to certain conditions during a period of local or national emergency or military
mobilization; or subject to certain other circumstances.


                                               Page 20
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT             ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

the borrower’s or endorser’s repayment obligation, or to permit the borrower or endorser
to resume honoring that obligation after default.”

Under 34 C.F.R. § 668.183(b), the cohort default rate calculation’s denominator includes
borrowers who are in deferment and forbearance status, because these borrowers are
considered to be in repayment on their loans. During the deferment or forbearance
period, a borrower’s lack of scheduled payments is not considered a delinquency and is
not included in the delinquency period that results in a default. According to 34 C.F.R. §
682.210(a)(7), the delinquency period required to establish default does not run during
the deferment and post-deferment grace periods. When these periods expire, unless the
lender grants a forbearance, the borrower resumes any delinquency status that existed
when the deferment began.

When a lender or servicer grants a deferment or forbearance on a borrower’s loan, the
deferment or forbearance may help lower a school’s cohort default rate. This occurs
because the default rate calculation’s denominator (the number of borrowers in the
cohort) includes borrowers who are in deferment and forbearance status. These
borrowers are not required to make payments on their loans and may not have been
subject to a risk of default during the two-year cohort period. Borrowers in deferment
and forbearance status who are not subject to a risk of default will not be included in the
default rate calculation’s numerator (the number of cohort borrowers who default). As a
result, the number of borrowers who default is divided by a number that is larger than the
total number of borrowers who are making payments on their loans and are subject to a
risk of default.

As described in this section, we determined the percentage of cohort borrowers in
deferment or forbearance on the last day of the two-year cohort period, and we used this
data to calculate alternative default rates and alternative/adjusted default rates. Based on
our analysis of this information, cohort default rates do not appear to provide decision
makers with sufficient information on defaults in the Title IV loan programs, because
they do not consider a borrower’s deferment or forbearance status, or the borrower’s risk
of default during the two-year cohort period. Without information that reflects the
general trends in defaults, schools may continue to participate in the Title IV programs,
even though a significant percentage of their students may default. Defaulted student
loans cost taxpayers money.

Percentage of Borrowers in Deferment or Forbearance

Using Loan Record Detail Report (LRDR) files, we identified the borrowers in each
cohort who were in deferment or forbearance status on all their loans that were included
in the LRDR. We calculated the percentage of each cohort’s borrowers who were in
deferment or forbearance status as of the end of the two-year cohort period, the date for
which the cohort default rate is calculated.




                                         Page 21
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                         ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



The results of our calculations are provided in the following table:

                       Table 2-1: Cohort Borrowers in Deferment (DA) or Forbearance (FB) Status on LRDR


                                1996                          1997                         1998                      1999
                                 Borrowers in                  Borrowers in                 Borrowers in              Borrowers in
                        Percent                       Percent                      Percent                   Percent
     School Type                  DA or FB                      DA or FB                     DA or FB                  DA or FB
                       of Cohort                     of Cohort                    of Cohort                 of Cohort
                                    Status	                       Status                       Status                    Status
Public Schools               11.2%         126,113     15.9%       190,334         20.6%        256,829      23.4%        304,607
Private Schools                  8.9%       52,403     12.4%        75,772         16.6%        103,924      19.1%        123,054
Proprietary Schools              8.2%       27,124     13.5%        45,164         18.0%           59,550    20.4%         70,410
Foreign Schools                  8.6%         278      11.9%          444          17.9%             752     21.9%          1,012
Unclassified Schools             4.7%          47      2.0%               22        1.1%              12      2.3%             14
Total                        10.1%         205,965     14.5%       311,736         19.1%        421,067      21.7%        499,097



The percentage of each cohort’s borrowers in deferment or forbearance, identified in
Table 2-1, is illustrated in the following graph:

                                          Graph 2-1: Percent of Cohort Borrowe rs in
                                         Deferment or Forbearance Status on the LRDR
                                 25.0%

                                 20.0%                                                     21.7%
                                                                          19.1%
                                 15.0%
                       Percent




                                                         14.5%
                                 10.0%
                                            10.1%
                                  5.0%

                                  0.0%
                                            1996          1997             1998             1999
                                                                 Cohort



Between the 1996 and 1999 cohorts, the percentage of cohort borrowers in deferment or
forbearance status more than doubled, from 10.1 percent for the 1996 cohort to 21.7
percent for the 1999 cohort. This represents a significant increase in the percentage of
cohort borrowers in deferment or forbearance status:
•		 In the 1999 cohort, approximately 1 in 5 borrowers were in deferment or forbearance
    status.
•		 In the 1996 cohort, approximately 1 in 10 borrowers were in deferment or
    forbearance status.
•		 GAO found that 5.2 percent, or approximately 1 in 20 borrowers, were in deferment
    or forbearance status in the 1993 cohort.10
10
  U.S. General Accounting Office, Student Loans: Default Rates Need to Be Computed More
Appropriately, GAO/HEHS-99-135, July 1999. While our count of 1996 cohort borrowers in deferment or
forbearance status is different from GAO’s count, our data supports the trends and issues identified by
GAO. GAO found that approximately 96,000 borrowers in the 1993 cohort and 227,000 borrowers in the


                                                        Page 22
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                            ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Alternative Default Rates

In its July 1999 report, Student Loans: Default Rates Need to be Computed More
Appropriately, GAO found that if borrowers with loans in deferment or forbearance
status were excluded from the cohort default rate calculation’s denominator, the 1996
cohort default rate would increase from 9.6 percent to 10.9 percent. We applied GAO’s
method to calculate alternative default rates for the 1996 through 1999 cohorts. We
calculated these alternative default rates using the following formula:

             The number of borrowers who enter repayment in the cohort FY
                    and who default during the two-year cohort period.
             The number of borrowers who enter repayment in the cohort FY,
             less borrowers in deferment or forbearance status on the LRDR.

The results of our calculations are presented in the following table:
                                             Table 2-2: Alternative Default Rates

                                                                                                      Percentage
                                                                                                     Change 1996
                                                  1996          1997          1998         1999         to 1999
             Overall
             Alternative Default Rate            10.7%         10.3%          8.6%         7.3%         -32.2%
             Cohort Default Rate (CDR)            9.6%          8.8%          6.9%         5.7%         -41.0%
              Difference                          1.1%          1.5%          1.6%         1.6%
              Difference as Percent of CDR       11.3%         16.9%         23.5%        27.8%

             Public Schools
             Alternative Default Rate             9.6%          9.8%          8.7%         7.3%         -23.7%
             Cohort Default Rate                  8.5%          8.3%          6.9%         5.6%         -34.1%
              Difference                          1.1%          1.6%          1.8%         1.7%
              Difference as Percent of CDR       12.6%         18.9%         26.0%        30.4%

             Private Schools
             Alternative Default Rate             7.7%          7.0%          5.7%         4.8%         -37.5%
             Cohort Default Rate                  7.0%          6.1%          4.7%         3.9%         -44.3%
              Difference                          0.7%          0.9%          0.9%         0.9%
              Difference as Percent of CDR        9.9%         14.2%         19.9%        23.5%

             Proprietary Schools
             Alternative Default Rate            19.8%         17.9%         13.9%        11.8%         -40.6%
             Cohort Default Rate                 18.2%         15.4%         11.4%         9.4%         -48.5%
              Difference                          1.6%          2.4%          2.5%         2.4%
              Difference as Percent of CDR        8.9%         15.6%         22.0%        25.6%

                                                              Note: Amounts have been rounded to one decimal place.




1996 cohort were in deferment or forbearance status. We found that approximately 206,000 borrowers in
the 1996 cohort were in deferment or forbearance status. The difference in counts may be the result of
different methodology used to identify borrowers in deferment or forbearance status on the LRDR.


                                                      Page 23
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT               ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Table 2-2 shows that, if borrowers with loans in deferment or forbearance status were
excluded from the denominators of the cohort default rate calculations, the 1996 through
1999 cohort default rates would be materially increased. In addition, from 1996 to 1999
   •		 The difference between the alternative default rate and cohort default rate became
       greater: the difference increased from 11.3 percent of the 1996 cohort default rate
       to 27.8 percent of the 1999 cohort default rate.
   •		 The alternative default rates experienced a downward trend similar to that of
       cohort default rates, but the decline is significantly less than that for cohort default
       rates during the same period.

Public, private, and proprietary school types also experienced these trends.

Alternative/Adjusted Default Rates

As discussed in Finding No. 1, the change in the definition of default may have caused
the 1998 and 1999 cohort default rates to be understated by a material amount, compared
to what those cohort default rates would have been if the definition had not changed. In
order to determine the effect that both the change in definition of default and borrowers
in deferment or forbearance status may have on cohort default rates, we calculated
“alternative/adjusted” default rates that
    •		 Exclude borrowers in deferment or forbearance status from the calculation’s
        denominator and
    •		 Include in the numerator defaults we identified in the 90-day periods following
        the 1998 and 1999 two-year cohort periods.

We calculated the alternative/adjusted default rates for the 1998 and 1999 cohorts using
the following formula:

             The number of borrowers who enter repayment in the cohort FY
            and who default during the two-year cohort period and during the
                   90 day period following the two-year cohort period.
            The number of borrowers who enter repayment in the cohort FY,
            less the number of borrowers in deferment and forbearance status
                                      on the LRDR.




                                         Page 24
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                 ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



The results of our calculations are provided in the following table:
                                           Table 2-3: Alternative/Adjusted Default Rates

                                                                                                            Percentage
                                                                                                           Change 1996
                                                     1996            1997          1998          1999         to 1999
           Overall
           Alternative/Adjusted Default Rate         10.7%           10.3%         9.5%          8.4%          -21.4%
           Cohort Default Rate (CDR)                  9.6%            8.8%         6.9%          5.7%          -41.0%
            Difference                                1.1%            1.5%         2.6%          2.7%
            Difference as Percent of CDR             11.3%           16.9%        36.9%         48.2%

           Public Schools
           Alternative/Adjusted Default Rate          9.6%            9.8%         9.6%          8.5%          -11.6%
           Cohort Default Rate                        8.5%            8.3%         6.9%          5.6%          -34.1%
            Difference                                1.1%            1.6%         2.7%          2.9%
            Difference as Percent of CDR             12.6%           18.9%        39.7%         51.0%

           Private Schools
           Alternative/Adjusted Default Rate         7.7%             7.0%         6.2%          5.5%          -27.9%
           Cohort Default Rate                       7.0%             6.1%         4.7%          3.9%          -44.3%
            Difference                               0.7%             0.9%         1.5%          1.6%
            Difference as Percent of CDR             9.9%            14.2%        32.2%         42.3%

           Proprietary Schools
           Alternative/Adjusted Default Rate         19.8%           17.9%        15.4%         13.8%          -30.3%
           Cohort Default Rate                       18.2%           15.4%        11.4%          9.4%          -48.5%
            Difference                                1.6%            2.4%         4.1%          4.5%
            Difference as Percent of CDR              8.9%           15.6%        35.7%         47.4%

                                                                    Note: Amounts have been rounded to one decimal place.


A comparison of the cohort default rates and alternative/adjusted default rates, identified
in Table 2-3, is provided in the following graph:


                                Graph 2-2: Cohort and Alternative/Adjusted Default Rates

                        12.0%
                                                                    10.3%         9.5%
                                 10.7%                                                                  8.4%
                        10.0%
                        8.0%          9.6%
              Percent




                                                             8.8%
                        6.0%
                                                                                  6.9%
                        4.0%                                                                            5.7%
                        2.0%
                        0.0%
                                      1996                   1997                 1998                  1999
                                                                      Cohort

                                         Cohort Default Rate                Alternative/Adjusted Default Rate




                                                         Page 25
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                        ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



As Table 2-3 and Graph 2-2 show, if borrowers with loans in deferment or forbearance
status were excluded from the cohort default rate calculation and the 1998 and 1999
cohort default rates were adjusted for the change in the definition of default, the effect
would be a material increase in each of the overall cohort default rates for the 1996
through 1999 cohorts. In addition, from 1996 to 1999
    •		 The difference between the alternative/adjusted default rate and the cohort default
        rate became greater: the difference increased from 11.3 percent of the 1996 cohort
        default rate to 48.2 percent of the 1999 cohort default rate.
    •		 The alternative/adjusted default rates experienced a downward trend similar to the
        trend of cohort default rates, but the decline is materially less than the decline of
        cohort default rates during the same period.

For the 1996 through 1999 cohorts, the overall alternative/adjusted default rates and the
alternative/adjusted default rates for private and proprietary schools declined each year.
However, alternative/adjusted default rates for public schools did not experience the same
yearly declines. A comparison of cohort default rates and alternative/adjusted default
rates for public schools, identified in Table 2-3, is provided in the following graph:


                                Graph 2-3: Public School Default Rates

                     12.0%     9.6%                            9.6%
                                               9.8%                         8.5%
                     10.0%
                      8.0%
                               8.5%           8.3%
                      6.0%
                                                               6.9%
                      4.0%                                                  5.6%
                      2.0%
                      0.0%
                               1996           1997             1998         1999
                                                      Cohort

                        Cohort Default Rate          Alternative/Adjusted Default Rate


On average, during the 1996 to 1999 cohorts, public school borrowers comprised the
majority of all cohort borrowers (56 percent) and cohort borrowers in deferment or
forbearance status (61 percent). As shown in Graph 2-3, the alternative/adjusted default
rates for public schools remained relatively unchanged for the 1996 through 1998
cohorts.

The measured decline of 1.1 percent (9.6 percent to 8.5 percent) in public schools’
alternative/adjusted default rates for the 1996 through 1999 cohorts occurred between the
1998 and 1999 cohorts. Though public schools’ 1996 through 1999 alternative/adjusted
default rates declined by 11.6 percent, this decline is materially less than the declines
during the same period for private schools and for proprietary schools.




                                           Page 26
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT           ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Recommendations:

To provide decision makers with sufficient information on defaults in the Title IV loan
programs, we recommend that the Assistant Secretary for Postsecondary Education and
the Chief Operating Officer for Federal Student Aid support amendments to the HEA that

2.1		   Exclude from the cohort default rate calculation borrowers who are not subject to
        a risk of default during the two-year cohort period, because their loans are in
        deferment or forbearance status.
2.2		   Include the borrowers who are excluded from a cohort default rate calculation by
        Recommendation 2.1 in a subsequent cohort, when the deferment or forbearance
        ends and they are subject to a risk of default.

The objective of these recommendations could be accomplished in a number of different
ways, depending upon how the Department chooses to implement them. Since these
amendments to the HEA could, under some scenarios, require substantial expenditures
for systems’ modifications, we encourage the Department to study and identify low-cost,
effective options, and to support implementing amendments to the HEA.

OPE Comments:

OPE states that excluding from the cohort default rate calculation borrowers whose loans
are in a deferment or forbearance status could result in more schools having “fewer than
30 loans in repayment.” As a result, more schools’ cohort default rates would be based
on the average number of defaults in the three most recent cohorts, under the alternative
cohort default rate calculation provided in Section 435(m)(1)(C) of the HEA, and more
schools may be eligible for certain regulatory appeals.

OIG Response:

We acknowledge that the implementation of our recommendations could increase the
number of schools with fewer than 30 borrowers in a cohort. However, this increase
should only occur during a short transition period. Though a borrower would be removed
from a cohort based on a deferment or forbearance status, the same borrower would be
included in a later cohort, once the deferment or forbearance status ended: the cumulative
number of borrowers in cohorts would remain unchanged. In addition, the Department
currently has cohort default rate regulations and procedures for schools with fewer than
30 borrowers in a cohort.




                                        Page 27
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                    ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

                                       OTHER MATTERS

Other Reasons Cohort Default Rates May Not Provide Sufficient Information.

Some other reasons why cohort default rates may not provide decision makers with
sufficient information on Title IV loan program defaults are provided below:

•		 Cohort default rates reflect defaults during the two-year cohort period, not the life of
    the loan, which can be up to 30 years depending on the loan type and repayment plan.
•		 PLUS loans and certain Consolidation loans are guaranteed by the government but
    excluded from the cohort default rate calculation.
•		 Cohort default rates are calculated based upon the number of borrowers in a cohort,
    and not upon the number of loans or the loan amounts.

We did not examine the significance, if any, of these factors.

Effect of Change in Definition of Default on Reducing Defaults

The 1998 Amendments’ change in the definition of default (see Background and Finding
No. 1) was one of several savings measures enacted to offset the cost associated with
changing the formula for lenders’ student loan interest subsidies.11 The Congressional
Budget Office estimated that the definition change would reduce the outlays associated
with defaulted loans by $880 million for the period 1998 to 2008.

The estimate of these cost savings appears to have been based on the delay of the
estimated cash flows associated with defaulted loans by 90 days (thereby reducing the
present value of the estimated cash flows) and on the implementation of default aversion
activities during the 90-day period, which were expected to result in fewer defaults.
However, the data we obtained during our audit did not appear to reflect a material
reduction in the number of defaults beyond what would have been expected.

To determine if the change in the definition of default had a material impact on reducing
defaults, we estimated expected cohort default rates for the 1998 and 1999 cohorts using
a regression analysis of the 1995 through 1997 cohort default rates. In the following
table, we compare these expected default rates with the adjusted default rates we
calculated in Finding No. 1:

                                                                  Expected vs.
                                  Expected        Adjusted         Adjusted
                     Cohort
                                 Default Rate    Default Rate     Default Rate
                                                                   Difference
                      1998          8.0%             7.7%             0.3%
                      1999          7.2%             6.6%             0.6%


11
  Congressional Research Service Report for Congress, Student Loans: 1998 Amendments, 98-291 EPW,
February 19, 1999.


                                           Page 28
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                   ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

The comparison in the preceding table is illustrated in the following graph:


                                        Graph OM-1: Default Rates 1995 to 1999 Cohorts
                                12.0%
                                10.0%                                         8.0%


                 Default Rate
                                                                                         7.2%
                                 8.0%    10.4%
                                                     9.6%
                                 6.0%                              8.8%
                                                                              7.7%
                                 4.0%                                                    6.6%
                                 2.0%
                                 0.0%
                                         1995        1996          1997       1998       1999
                                                               Cohort
                                         Cohort Default Rate       Expected Rate     Adjusted Rate



Since the definition change was applicable for loans for which the first day of
delinquency occurred on or after October 7, 1998, cohort default rates for the 1998 and
subsequent cohorts were impacted by the definition change. If defaults by borrowers in
the 1998 and 1999 cohorts declined at a rate materially greater than the expected trend,
the graph of adjusted default rates should exhibit a materially steeper decline from the
1997 to 1999 cohorts.

As the preceding table and Graph OM-1 show, 1998 and 1999 adjusted default rates did
not decline by materially greater amounts than would be expected, based upon the trend
established by the 1995 to 1997 cohort default rates. As a result, if other factors affecting
the frequency of borrower default remained constant, the change in definition of default
from a 180-day to 270-day delinquency does not appear to have had a material impact on
reducing the number of defaults in the 1998 and 1999 cohorts beyond what would have
been expected, had the cohort default rates continued the decline experienced in the 1995
to 1997 cohorts.

In addition to the 1998 Amendments’ change to the definition of default, the decline in
the 1998 and 1999 adjusted default rates could have been the result of a number of other
factors that affect the frequency of borrower default: economic growth, lower
unemployment, default management activities (i.e., removal of schools from the loan
programs, collection efforts), or other factors.




                                                         Page 29
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT               ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                          OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine if cohort default rates, as calculated under the
HEA, provide sufficient information on defaults in the Title IV loan programs. Our audit
covered the 1996 through 1999 cohort periods and the following FYs, as detailed below:

                                  Two-Year Cohort
                  Cohort                                  Extended Period
                                       Period
                   1996           10/1/95 to 9/30/97      10/1/97 to 9/30/98
                   1997           10/1/96 to 9/30/98      10/1/98 to 9/30/99
                   1998           10/1/97 to 9/30/99      10/1/99 to 9/30/00
                   1999           10/1/98 to 9/30/00      10/1/00 to 9/30/01

To accomplish our objective, we held discussions with officials from the Department’s
FSA Default Management (DM), FSA National Student Loan Data System (NSLDS), the
NSLDS contractor, and the Department’s OPE Policy, Planning & Innovation, to gain an
understanding of how cohort default rates are calculated and their use by ED. We
reviewed laws, regulations, and program office guidance applicable to cohort default
rates. We reviewed publications and materials on the Department’s FSA organization
and Title IV loan programs. We reviewed prior OIG and GAO reports pertinent to the
audit objective. We obtained loan program data from the Department’s Office of the
Under Secretary, Budget Service.

We employed the following methodology to identify defaults in the FY following each
two-year cohort period (the extended cohort period):
•		 The complete LRDR populations for each of the 1996 to 1999 cohorts were obtained
    from the Department’s contractor.
•		 We segregated each cohort’s LRDR loan population into two data sets. The first data
    set consisted of the loans for all borrowers who entered repayment and who defaulted
    during the two-year cohort period (LRDR usage codes "B" and "E"). The second data
    set consisted of the loans for all borrowers who entered repayment and who did not
    default during the two-year cohort period (LRDR usage codes "D" and "E").
•		 We removed contradictory records from the data set containing the loans for all
    borrowers who entered repayment and who did not default during the two-year cohort
    period. This was accomplished by (1) removing any duplicate borrowers at the same
    school, and (2) removing any of the borrowers who were identified, in other records,
    as also having defaulted (LRDR loan usage code "B").
•		 In June 2002, we obtained the entire table of FFELP default claim records and Direct
    Loan default records recorded on the NSLDS (the default table).
•		 We compared the data set containing the loans for all borrowers who did not default
    during the two-year cohort period to the default table and identified borrowers whose
    loans had defaulted prior to or during the original two-year cohort period. The
    identified borrowers were omitted from further analysis.
•		 We compared the remaining records in the data set containing the loans for all
    borrowers who did not default during the two-year cohort period to the default table
    and identified borrowers whose loans defaulted during the extended cohort period.


                                         Page 30
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT            ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

•		 We identified the populations of FFELP and Direct Loan consolidation loans
    associated with each cohort’s borrowers who did not default during the two-year
    cohort period (LRDR usage codes "N"). We compared these consolidation loan
    populations to the default table and identified borrowers with consolidation loans that
    had defaulted during the extended cohort period. ED’s processing logic was then
    applied to determine if a link from the defaulted consolidation loan to the underlying
    loans was available. If a link was available, we considered the borrower to have
    defaulted during the extended cohort period.

At each stage, we allocated the population of borrowers in default between those that
occurred during the first 90 days of each extended cohort period (October 1st through
December 29th) and those that occurred after the first 90 days of the extended cohort
period (December 30th through September 30th). We summarized the extended cohort
period default records by school type, using OPE identification numbers and school
type/program length data. Based upon a regression analysis of the 1995 through 1997
cohort default rates, we estimated expected cohort default rates for the 1998 and 1999
cohorts.

Using the populations of borrowers who defaulted in the extended cohort periods and the
numerator and denominator counts from the cohort default rates, we calculated default
rates for
•		 Defaults occurring in the three-year period, which includes the original two-year
    cohort period and the extended cohort period;
•		 Defaults occurring in the extended cohort period (the third year); and
•		 Defaults occurring in the original cohort period and an additional 90 days.

We identified the number of borrowers in each cohort who were in deferment or
forbearance status, based on data in the LRDR. We calculated default rates that excluded
borrowers in deferment and forbearance status from the cohort default rate calculation's
denominator and adjusted the calculation’s numerator for the change in definition of
default by including defaults recognized in the 90-days following the 1998 and 1999
cohort periods. We analyzed the calculated default rates. For purposes of our analysis,
we deemed percentage deviations of 10 percent or greater to be material.

To achieve the audit objective, we relied extensively on computer-processed data
contained in the NSLDS, specifically the LRDR’s loan records for all borrowers who
entered repayment and who did not default during the two-year cohort period, FFELP
insurance claims payment table, and Direct Loan Program default rate default table. We
assessed the reliability of this data by reviewing the PriceWaterhouseCoopers NSLDS
Data Quality Assessments, dated June 1999 and December 2001; comparing file record
counts; and performing logic tests on the data. We compared record counts from the
LRDR files to counts of cohort borrowers and defaulters issued by FSA DM and
concluded that the data files provided by the Department were reasonably complete.

We performed tests of the population of defaults identified in the extended cohort period.
These tests included determining if a sufficient number of days had elapsed between the


                                        Page 31
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT           ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS

date the loan entered repayment and the default date, determining if the FFELP insurance
claim payment date was prior to the reinsurance claim payment date, determining if
defaulted Direct Loans had been held by the Department, and determining if the default
date for Direct Loan defaults was on or prior to the date the loan was transferred to the
Department. As noted above, we omitted contradictory records from the population of
records reviewed for defaults in the extended cohort period. While discrepancies and
contradictory records were noted during the testing, the percentage of records with
potential conflicting data was not significant given the volume of data evaluated. The
impact of these records is minimal to the results of our analysis. Based upon the final
data reliability assessment performed, we concluded the default data is sufficiently
reliable for use in meeting the audit objective.

We also relied upon borrowers’ loan status contained in the LRDR. We did not perform
tests on the validity of borrower’s loan status code contained in the LRDR. Schools and
data managers are provided opportunities to correct erroneous loan data prior to the
issuance of the official cohort default rates. In identifying borrowers in deferment or
forbearance status, we included only borrowers who had a loan status code of deferment
or forbearance for all their loans. Our analysis was based upon the effective loan status
codes for the end of the two-year cohort period that are contained in the LRDR. These
codes were based on information available on the NSLDS at the time the cohort default
rate was calculated. As noted above, we concluded that the LRDR files provided by the
Department were reasonably complete. Based upon our preliminary data reliability
assessment, we conclude the loan status data contained in the LRDR is sufficiently
reliable for use in meeting the audit objective.

An assessment of management controls over the cohort default rate calculation was not
necessary to achieve the audit’s objective. As a result, we did not perform an assessment
to determine if the management controls are adequate and functioning as intended. To
achieve the objective of our audit, we gained an understanding of how cohort default
rates are calculated through discussions with FSA officials and reviews of pertinent
policies, procedures, and practices.

We conducted the audit fieldwork at FSA’s offices in Washington, D.C., on June 5 and 6,
2002 and February 11, 2003. Additional work was performed at OIG offices in
Philadelphia, Pennsylvania, and Boston, Massachusetts. An exit conference was held on
September 17, 2003. We conducted our audit in accordance with generally accepted
government audit standards appropriate to the scope of the audit work described above.




                                        Page 32
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                    ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                  APPENDIX A – GROSS DEFAULT RATES BY RISK CATEGORY

The default rates provided in the table below are used by the Department to develop loan
program cost estimates, and represent projected defaults over the life of the loan cohort.
They are not the same as cohort default rates calculated under the HEA. The Department
uses risk categories for its estimates of subsidy rates, because costs vary widely within
the loan programs, depending on the characteristics of the borrower.

                                                    Gross Default Rates by Risk Category

        Budget Fiscal Year                                  1998          1999             2000         2001           2002
        Default Rate Year                                   1996          1997             1998         1999           2000

        FFELP Subsidized Loans:
        4 year college, 1st and 2nd year students           21.5%         30.6%            19.6%       19.7%          19.3%
        4 year college, 3rd and 4th year students           15.2%         19.1%            13.1%       13.2%          12.6%
        2 year college, all students                        31.2%         39.8%            32.7%       32.7%          30.5%
        Proprietary school, all students                    37.8%         50.8%            49.1%       49.3%          44.6%
        Graduate students                                   10.4%         11.9%             8.8%        8.9%           8.2%

        FFELP Unsubsidized Loans:
        4 year college, 1st and 2nd year students           21.9%         30.3%            19.1%       20.0%          19.7%
        4 year college, 3rd and 4th year students           15.4%         19.8%            13.1%       13.1%          12.5%
        2 year college, all students                        31.0%         42.3%            32.1%       32.1%          29.6%
        Proprietary school, all students                    37.5%         43.5%            48.0%       48.2%          42.9%
        Graduate students                                   10.3%         12.4%             8.7%        8.7%           8.1%

        FFELP PLUS Loans                                    9.6%          11.1%            9.8%        10.9%           9.2%

        Direct Loan Program Subsidized Loans:
        4 year college, 1st and 2nd year students           22.5%         30.6%            19.9%       20.0%          19.4%
        4 year college, 3rd and 4th year students           15.1%         19.1%            13.1%       13.2%          12.5%
        2 year college, all students                        31.6%         39.8%            33.0%       33.3%          30.5%
        Proprietary school, all students                    37.7%         49.9%            49.2%       49.5%          44.1%
        Graduate students                                   10.4%         11.9%             8.8%        8.8%           8.1%

        Direct Loan Program Unsubsidized Loans:
        4 year college, 1st and 2nd year students           22.4%         30.3%            20.0%       20.0%          19.4%
        4 year college, 3rd and 4th year students           15.2%         19.8%            13.0%       13.0%          12.3%
        2 year college, all students                        31.2%         42.3%            31.1%       32.5%          29.5%
        Proprietary school, all students                    37.5%         43.5%            48.0%       48.4%          42.3%
        Graduate students                                   10.2%         12.4%             8.7%        8.7%           8.0%

        Direct Loan PLUS Loans:                             8.5%          10.4%            9.3%         9.4%           8.8%

                                                                                  Source: Annual Budgets of the U.S. Government.




                                                             Page A-1
AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                                                   ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



                                                                   APPENDIX B – DEFAULT DATA
Cohort Default Rates.
                                  1996                                1997                                   1998                                   1999
      School Type        Rate      Defaults   Borrowers     Rate       Defaults     Borrowers        Rate     Defaults    Borrowers     Rate         Defaults    Borrowers
             Public     8.5%        95,973     1,124,086   8.3%         99,300       1,200,465      6.9%       85,741      1,245,697    5.6%          73,318      1,303,020
     Less than 2 yrs    10.7%          695         6,508   10.7%           688           6,411      8.5%          542          6,390    7.1%             408          5,768
             2-3 yrs    13.3%       35,996       270,232   12.7%        36,344         286,041      10.7%      31,849        297,220    8.9%          27,485        310,412
              4 yrs+     7.0%       59,282       847,346   6.9%         62,268         908,013      5.7%       53,350        942,087    4.6%          45,425        986,840
            Private     7.0%        40,895      586,324    6.1%         37,660         613,143      4.7%       29,594       626,931     3.9%          25,049       645,873
     Less than 2 yrs    21.4%        1,037        4,855    19.2%           898           4,672      14.4%         493         3,424     13.4%            426         3,173
             2-3 yrs    12.4%        3,477       27,966    11.0%         3,010          27,405      8.4%        2,194        26,146     6.7%           1,460        21,902
              4 yrs+     6.6%       36,381      553,503    5.8%         33,752         581,066      4.5%       26,907       597,361     3.7%          23,163       620,798
       Proprietary      18.2%       60,299      330,974    15.4%        51,704         334,796      11.4%      37,532       330,356     9.4%          32,390       345,417
     Less than 2 yrs    22.0%       25,843      117,544    18.5%        20,895         113,131      14.2%      14,277       100,716     10.9%         10,430        95,643
             2-3 yrs    16.7%       24,544      146,877    14.2%        21,343         149,956      10.4%      15,540       149,661     9.1%          14,459       158,836
              4 yrs+    14.9%        9,912       66,553    13.2%         9,466          71,709       9.6%       7,715        79,979     8.2%           7,501        90,938
          Foreign       4.8%           155         3,221   4.3%            159            3,721     3.7%          155          4,202    2.2%             102          4,618
       Unclassified     1.6%            16           990   0.8%              9            1,128     0.6%            6          1,076    0.3%               2            605
              Total     9.6%       197,338     2,045,595   8.8%        188,832       2,153,253      6.9%      153,028      2,208,262    5.7%         130,861      2,299,533


Adjusted Default Rates (See Finding No. 1).
                                                                                                              1998                                   1999
                                                                                   School Type        Rate     Defaults    Borrowers      Rate        Defaults    Borrowers
                                                                                          Public     7.6%       95,043      1,245,697    6.5%          84,846      1,303,020
                                                                                  Less than 2 yrs    9.5%          607          6,390    8.2%             471          5,768
                                                                                          2-3 yrs    11.9%      35,439        297,220    10.3%         31,949        310,412
                                                                                           4 yrs+    6.3%       58,997        942,087    5.3%          52,426        986,840
                                                                                         Private     5.2%       32,671       626,931     4.5%          28,849        645,873
                                                                                  Less than 2 yrs    16.6%         569         3,424     15.3%            485          3,173
                                                                                          2-3 yrs    9.0%        2,342        26,146     7.6%           1,654         21,902
                                                                                           4 yrs+    5.0%       29,760       597,361     4.3%          26,710        620,798
                                                                                    Proprietary     12.6%       41,720       330,356    11.0%          38,039        345,417
                                                                                  Less than 2 yrs   15.6%       15,667       100,716    12.8%          12,206         95,643
                                                                                          2-3 yrs   11.6%       17,354       149,661    10.7%          17,006        158,836
                                                                                           4 yrs+   10.9%        8,699        79,979     9.7%           8,827         90,938
                                                                                       Foreign       3.9%          163          4,202    2.4%             112          4,618
                                                                                    Unclassified     0.6%            6          1,076    0.3%               2            605
                                                                                           Total     7.7%      169,603      2,208,262    6.6%         151,848      2,299,533




                                                                           Page B-1 

AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                                           ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS



Third-Year Default Rates (See Finding No. 1).
                                  1996                               1997                              1998                                 1999
      School Type    Rate          Defaults     Borrowers    Rate     Defaults   Borrowers     Rate     Defaults   Borrowers    Rate         Defaults   Borrowers
             Public 3.6%            40,367       1,124,086   2.7%      31,841     1,200,465    2.8%      35,244     1,245,697   3.1%          40,587     1,303,020
     Less than 2 yrs 4.8%              314           6,508   4.6%         292         6,411    4.5%         287         6,390   4.8%             277         5,768
             2-3 yrs 5.4%           14,572         270,232   4.1%      11,728       286,041    4.5%      13,509       297,220   5.0%          15,555       310,412
              4 yrs+ 3.0%           25,481         847,346   2.2%      19,821       908,013    2.3%      21,448       942,087   2.5%          24,755       986,840
            Private    2.9%          17,145       586,324    2.0%      12,455      613,143     2.0%      12,495      626,931    2.3%          14,981      645,873
     Less than 2 yrs   8.1%             392         4,855    7.1%         333        4,672     7.3%         250        3,424    6.8%             217        3,173
             2-3 yrs   4.6%           1,277        27,966    3.3%         906       27,405     3.3%         859       26,146    4.5%             984       21,902
              4 yrs+   2.8%          15,476       553,503    1.9%      11,216      581,066     1.9%      11,386      597,361    2.2%          13,780      620,798
       Proprietary     8.0%          26,395       330,974    6.4%      21,400      334,796     6.8%      22,574      330,356    7.5%          25,945      345,417
     Less than 2 yrs   9.3%          10,903       117,544    7.6%       8,562      113,131     7.9%       8,005      100,716    9.2%           8,774       95,643
             2-3 yrs   7.2%          10,579       146,877    5.8%       8,755      149,956     6.7%       9,990      149,661    7.2%          11,509      158,836
              4 yrs+   7.4%           4,913        66,553    5.7%       4,083       71,709     5.7%       4,579       79,979    6.2%           5,662       90,938
          Foreign      2.5%              80          3,221   1.4%          51          3,721   1.2%          51         4,202   1.4%              65         4,618
       Unclassified    0.6%               6            990   0.4%           5          1,128   0.1%           1         1,076   0.5%               3           605
              Total    4.1%          83,993      2,045,595   3.1%      65,752     2,153,253    3.2%      70,365     2,208,262   3.5%          81,581     2,299,533



Three-Year Default Rates (See Finding No. 1).
                                  1996                               1997                              1998                                 1999
      School Type    Rate          Defaults     Borrowers     Rate    Defaults   Borrowers      Rate    Defaults   Borrowers     Rate        Defaults   Borrowers
            Public 12.1%           136,340       1,124,086   10.9%    131,141     1,200,465    9.7%     120,985     1,245,697   8.7%         113,905     1,303,020
    Less than 2 yrs 15.5%             1,009          6,508   15.3%        980         6,411    13.0%        829         6,390   11.9%            685         5,768
            2-3 yrs 18.7%           50,568         270,232   16.8%     48,072       286,041    15.3%     45,358       297,220   13.9%         43,040       310,412
             4 yrs+ 10.0%           84,763         847,346    9.0%     82,089       908,013    7.9%      74,798       942,087   7.1%          70,180       986,840
            Private    9.9%          58,040       586,324    8.2%      50,115      613,143     6.7%      42,089      626,931    6.2%          40,030      645,873
     Less than 2 yrs   29.4%          1,429         4,855    26.3%      1,231        4,672     21.7%        743        3,424    20.3%            643        3,173
             2-3 yrs   17.0%          4,754        27,966    14.3%      3,916       27,405     11.7%      3,053       26,146    11.2%          2,444       21,902
              4 yrs+    9.4%         51,857       553,503    7.7%      44,968      581,066     6.4%      38,293      597,361    6.0%          36,943      620,798
       Proprietary     26.2%         86,694       330,974    21.8%     73,104      334,796     18.2%     60,106      330,356    16.9%         58,335      345,417
     Less than 2 yrs   31.3%         36,746       117,544    26.0%     29,457      113,131     22.1%     22,282      100,716    20.1%         19,204       95,643
             2-3 yrs   23.9%         35,123       146,877    20.1%     30,098      149,956     17.1%     25,530      149,661    16.3%         25,968      158,836
              4 yrs+   22.3%         14,825        66,553    18.9%     13,549       71,709     15.4%     12,294       79,979    14.5%         13,163       90,938
          Foreign      7.3%             235          3,221   5.6%         210          3,721   4.9%         206         4,202   3.6%             167         4,618
       Unclassified    2.2%              22            990   1.2%          14          1,128   0.7%           7         1,076   0.8%               5           605
              Total    13.8%        281,331      2,045,595   11.8%    254,584     2,153,253    10.1%    223,393     2,208,262   9.2%         212,442     2,299,533




                                                                          Page B-2 

AUDIT TO DETERMINE IF COHORT DEFAULT RATES PROVIDE SUFFICIENT                                                                              ED-OIG/A03-C0017
INFORMATION ON DEFAULTS IN THE TITLE IV LOAN PROGRAMS




Alternative Default Rates (See Finding No. 2).
                                   1996                               1997                               1998                                  1999
       School Type    Rate          Defaults     Borrowers     Rate    Defaults   Borrowers      Rate   Defaults     Borrowers      Rate        Defaults   Borrowers
             Public 9.6%              95,973       997,973    9.8%      99,300     1,010,131    8.7%        85,741       988,868   7.3%          73,318      998,413
     Less than 2 yrs 11.9%               695         5,855    12.6%        688         5,464    10.5%          542         5,139   9.2%             408        4,429
             2-3 yrs 15.2%            35,996       236,081    15.2%     36,344       238,416    13.7%       31,849       231,749   11.8%         27,485      233,231
              4 yrs+ 7.8%             59,282       756,037    8.1%      62,268       766,251    7.1%        53,350       751,980   6.0%          45,425      760,753
            Private    7.7%           40,895       533,921    7.0%      37,660      537,371     5.7%        29,594       523,007   4.8%          25,049      522,819
     Less than 2 yrs   24.1%           1,037         4,310    22.9%        898        3,915     17.7%          493         2,781   16.1%            426        2,654
             2-3 yrs   13.5%           3,477        25,819    12.4%      3,010       24,347     10.0%        2,194        21,886   8.3%           1,460       17,493
              4 yrs+    7.2%          36,381       503,792    6.6%      33,752      509,109     5.4%        26,907       498,340   4.6%          23,163      502,672
       Proprietary     19.8%          60,299       303,850    17.9%     51,704      289,632     13.9%       37,532       270,806   11.8%         32,390      275,007
     Less than 2 yrs   24.1%          25,843       107,061    21.7%     20,895       96,226     17.6%       14,277        81,105   13.8%         10,430       75,519
             2-3 yrs   18.2%          24,544       135,017    16.4%     21,343      130,340     12.5%       15,540       123,910   11.3%         14,459      127,795
              4 yrs+   16.0%           9,912        61,772    15.0%      9,466       63,066     11.7%        7,715        65,791   10.5%          7,501       71,693
          Foreign      5.3%              155         2,943    4.9%         159          3,277   4.5%          155          3,450   2.8%             102        3,606
       Unclassified    1.7%               16           943    0.8%           9          1,106   0.6%            6          1,064   0.3%               2          591
              Total    10.7%         197,338      1,839,630   10.3%    188,832     1,841,517    8.6%      153,028      1,787,195   7.3%         130,861     1,800,436


Alternative/Adjusted Default Rates (See Finding No. 2).
                                   1996                               1997                               1998                                  1999
       School Type    Rate          Defaults    Borrowers      Rate    Defaults   Borrowers      Rate     Defaults    Borrowers     Rate        Defaults   Borrowers
             Public 9.6%             95,973         997,973   9.8%      99,300     1,010,131    9.6%       95,043       988,868    8.5%          84,846      998,413
     Less than 2 yrs 11.9%              695           5,855   12.6%        688         5,464    11.8%         607         5,139    10.6%            471        4,429
             2-3 yrs 15.2%           35,996         236,081   15.2%     36,344       238,416    15.3%      35,439       231,749    13.7%         31,949      233,231
              4 yrs+ 7.8%            59,282         756,037   8.1%      62,268       766,251    7.8%       58,997       751,980    6.9%          52,426      760,753
            Private    7.7%           40,895       533,921    7.0%      37,660      537,371     6.2%        32,671       523,007   5.5%          28,849      522,819
     Less than 2 yrs   24.1%           1,037         4,310    22.9%        898        3,915     20.5%          569         2,781   18.3%            485        2,654
             2-3 yrs   13.5%           3,477        25,819    12.4%      3,010       24,347     10.7%        2,342        21,886   9.5%           1,654       17,493
              4 yrs+    7.2%          36,381       503,792    6.6%      33,752      509,109     6.0%        29,760       498,340   5.3%          26,710      502,672
       Proprietary     19.8%          60,299       303,850    17.9%     51,704      289,632     15.4%       41,720       270,806   13.8%         38,039      275,007
     Less than 2 yrs   24.1%          25,843       107,061    21.7%     20,895       96,226     19.3%       15,667        81,105   16.2%         12,206       75,519
             2-3 yrs   18.2%          24,544       135,017    16.4%     21,343      130,340     14.0%       17,354       123,910   13.3%         17,006      127,795
              4 yrs+   16.0%           9,912        61,772    15.0%      9,466       63,066     13.2%        8,699        65,791   12.3%          8,827       71,693
          Foreign      5.3%              155         2,943    4.9%         159          3,277   4.7%          163          3,450   3.1%             112        3,606
       Unclassified    1.7%               16           943    0.8%           9          1,106   0.6%            6          1,064   0.3%               2          591
              Total    10.7%         197,338      1,839,630   10.3%    188,832     1,841,517    9.5%      169,603      1,787,195   8.4%         151,848     1,800,436




                                                                           Page B-3 

                   UNITED STATES DEPARTMENT OF EDUCATION

                                 OFFICE OF POSTSECONDARY EDUCATION


                                                                                            THE ASSISTANT SECRETARY
MEMORANDUM

                    DEC J 6 2003
DATE

TO            Bernard Tadley
              RegIOnal Inspector General for AudIt
              U S Department of EducatIOn

                                        /
                                            ---,
                                            ----,
FROM          Sally 1 StrouIYj_//
                      StrouPfJ'//

        Comments on Draft AudIt Report - AudIt to Detenmne
SUBJECT Conunents                                   Determme If Cohort Default
              ProvIde SufficIent InformatIOn
        Rates PrOVide            informatIOn on Defaults III
                                                         tn TItle IV Loan Programs
        (Control Number ED-OIG/A03-C0017)

The Office of Postsecondary EducatIOn, along With
                                                WIth Federal Student AId  WIth whom we
                                                                     Aid With
have worked III  developmg thIs response, are pleased WIth your efforts to review
              m developlllg                                                reVIew the
calculatIon
calculatton of cohort default rates Your report llldIcates
                                                mdicates that cohort default rates provIde
                                                                                   prOVIde
    mformatIon reqUIred under the HIgher EducatIOn Act (HEA) but recommends that
the mformatton
changes m statute would proy Ide more meanmgful mformatIOn The work that you have
done wIll mform our efforts related to the reauthonzatIOn
     wIlllllform                           reauthonzahon of the HEA and the
development of new measures and metncs m the FFEL and FDSL programs However,
we do have concerns WIth two of your recommendatIOns

Currently, we notify
               notIfy lllshtuhons
                      mstItutIons m September ofthelr    potentJalloss of program elIgIbilIty
                                                of theIr potenhalloss               elIgIbIlIty
assocIated WIth cohort default rates that exceed statutory thresholds We belIeve that
Implementmg your recommendatIOn to extend the numerator of the calculatIOn
                                                                       calculatIon by 90
                         m nottfymg
days WIll cause delays III notIfymg mshtutlons
                                    mstItutlOns oftheu potentlalloss
                                                          potentJalloss of program
ehgIbl hty unttl
ehgtbl     untIl December ThIS    WIll delay our abIlIty to mform mstttutIOns
                             ThiS wIll                             mshtuhons of any
sdllctIons pnor to theIr packagmg of aId for students for the subsequent academiC
sdllchons                                                                  academIC year
Tills could be extremely dIsruptIve and adversely Impact the overall goal of the HEA
programs of assunng access to postsecondary educatIOn

Also, WIth regard to the mc1usIOn
                         mcluslOn of loans that were m forbearance and deferment dunng
the two-year cohort penod, It would seem that the exclUSIOn of these loans could result m




                                      1990 K STREET N W      WASHINGTON D
                                                                        0 C 20006

        Our mlSswn
            mlSSlOn IS to ensure eaual access to educatIOn
                                                 educattOn and to ororrwte
                                                                  oro mote educattOnal
                                                                           educatwnal excellence tltrouahout
                                                                                                 throuohout the NattOn
                                                                                                                Natwn

                                                    Page C-1


Page 2 – Bernard Tadley

more institutions being subject to the exception for institutions with fewer than 30 loans
in repayment or to the three-year average rules. We will be examining the use of
forbearances and deferments this fall so that we are ready to make appropriate
recommendations when we submit HEA reauthorization proposals, if appropriate, early
next year.

As part of its FY 2004 Annual Plan activities, FSA will develop several new measures in
which to demonstrate success of its default management and prevention strategies. As
part of this commitment, the Portfolio Risk Management Group is developing, with
subsequent plans to publish, a lifetime default rate for the Title IV loan programs. The
lifetime default rate is another tool that will be utilized to reduce risk of loss to the
taxpayer. By monitoring default rates during the entire life of the loan, FSA will be able
to recognize trends during the repayment cycle that will provide opportunities for
identifying and reducing risk factors, in addition to monitoring its success in keeping
defaults at low levels.

We anticipate that the rate will be based on the cohort year and provide default activity
for the life of the loan. For instance, loans with a cohort year of 1996 will be monitored
annually beginning with 1997 through the payoff of the loan. The lifetime default rate
will focus on the amount of dollars in default, rather than the number of borrowers in
repayment, highlighting the borrower’s ability to repay a student loan rather than the
school’s administration of the program. To develop and publish a lifetime default rate by
school would be of little utility to schools and the Department. The school has a limited
span of control over borrowers’ repayment behavior, within the two-year period as
defined in the cohort default rate. The development of a lifetime default rate by sector
will also be of little utility because schools often change their institution type affecting
the consistency of a lifetime rate following a static cohort of borrowers. Additionally,
publication of a second measure of default that focuses on the school and sector level
would be confusing to schools and the public.

We anticipate that the Department will make decisions related to the administration’s
reauthorization proposals of the HEA early next year. At that time, we will seriously
consider the recommendations for changes to the cohort default rate calculation contained
in the draft report.

Additionally, although your report contained information about the defaults and loan
portfolio balances, we recommend including the following chart which we provided to
GAO’s audit entitled Federal Student Aid: Timely Performance Plans and Reports
Would Help Guide and Assess Achievement of Default Management Goals (GAO-03­
348).




                                          Page C-2
Page 3 – Bernard Tadley


                                          Total Outstanding FFEL & FDSL Loan Portfolio

                              $250
        Dollars in Billions




                              $200

                              $150                                                                 Nondefaulted Loans Outstanding
                                                                                                   Defaulted Loans Outstanding
                              $100

                              $50

                               $0
                                     1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001

                                                          Fiscal Year



Although we provided this information to GAO to demonstrate that our default
prevention and management strategies were appropriate to guide our efforts in the default
management area, it provides a clearer picture of the magnitude of the defaulted portfolio
versus the total Direct Loan and FFEL loans outstanding. In addition, we believe that it
is important to provide more recent statistics in Table 1 than the FY 1999 balances
because, in the more recent years, the outstanding defaulted portfolio is actually
decreasing because collections are outpacing the amount of the defaults. We believe that
information may be important to the reader and other policy makers as they are reviewing
this report.

Again, we appreciate the opportunity to comment on the important issues identified in
this draft report and will use this information to inform our HEA Reauthorization
proposals. If you have any questions on this response, please feel free to contact David
Bergeron at 202-502-7815.



cc:		                         Terri Shaw, FSA
                              Pat Howard, OIG




                                                                           Page C-3
